\ |-----\ n /" >. r~i r~\ n
i
if

f-~'

2j) •/(e
Docket No.
In the Supreme Court of the United States .
♦

f

PAUL W. NUSBAUM, JR.,

officf:

Petitioner,
v.
MARSHA R. NUSBAUM AND
CARROLL COUNTY CHILD SUPPORT ADMINISTRATION,
Respondents.
♦

PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF SPECIAL APPEALS OF MARYLAND
♦

Paul W Nusbaum
Petitioner Pro Se
200 Loblolly Ct
Peachtree City GA 30269
770-871-9784
paul_n_jr@bellsouth.net

RECEIVED
AUG 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

/

ft

QUESTIONS PRESENTED
1. Whether, where the obligee of child support payments is not receiving, and
has not received, public assistance, the federal and state governments have a direct
interest in how such payments are applied.
2. Whether federal regulations require that allocation of support funds paid
to a former spouse should be first paid to current child support and child support
arrears, prior to any payment of funds toward spousal support, a matter that is
subject to conflicting decisions of the state courts.
3. Whether Federal regulations require prioritization of current spousal
support obligations over child support arrearages.
4. Whether an agency determination that erroneously finds that Federal
regulations compel prioritization of current support is beyond judicial review on
separation of powers grounds.

i

ff

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
LIST OF ALL PROCEEDINGS
Court: Circuit Court for Carroll County - Family
Case Number:

06-C-03-039838

Title: Paul W Nusbaum Jr vs Marsha R Nusbaum
Judgment Entered: May 25, 2018

ii

if

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES

11

LIST OF ALL PROCEEDINGS

11

TABLE OF AUTHORITIES

IV

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION
WHEN NEITHER PARTY IS RECEIVING PUBLIC
ASSISTANCE THE FEDERAL GOVERNMENT HAS
NO INTEREST IN THE ALLOCATION OF SUPPORT
PAYMENTS AS HELD BY THE BETTER REASONED
DECISIONS: A CONTRARY RULE WOULD
VIOLATE THE TENTH AMENDMENT..........................

9

CONCLUSION

16

PROOF OF SERVICE

17

APPENDIX
Opinion of the Maryland Court of Special Appeals

A1

Maryland Bureau of Support Enforcement Policy Manual

A24

Order of the Maryland Court of Appeals Denying Certiorari

A25

iii

'f

TABLE OF AUTHORITIES
FEDERAL CASES
Blyth v. Commissioner, 21 T.C. 275 (1953)

12

Bond v.United States, 564 U.S. 211 (2011)

10

Hazam v. Commissioner, 79 T.C. 1579 (2000)

12

In re James, 406 F.3d 1340 (11th Cir. 2005)

10

In re Jones, 9 F.3d 878 (10th Cir. 1993)

11

Mallinckrodt, Inc. v. Medipart, Inc., 976 F.2d 700 (Fed. Cir.1992)

10

Proctor v. Commissioner, 129 T.C. 92 (2007)

12

Simms v. Simms, 175 U.S. 162 (1899)

10

STATE CASES
Hornbeck v. Caplinger, 227 W.Va. 611, 712 S.E.2d 779 (2011)

10

Kisor v. Wilkie, 139 Sup. Ct. 2400 (2019)

13

Matter of Marriage of Gayer, 326 Or. 436, 952 P.2d 1030 (1998)

9

Nusbaum v. Nusbaum, 243 Md.App. 653 (2019)

1

FEDERAL STATUTES AND REGULATIONS

11

26 U.S.C. §71(c)(3)
45 C.F.R. § 301.1

1, 11
2, 9, 10, 11

45 C.F.R. § 302.51
Exec. Order No. 12,953, 60 Fed. Reg. 39
(Feb. 28, 1995)...........................

14

42 U.S. Code 666 (a) (8(A)(B)(iv)

14

IV

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
The Opinion of the Court of Special Appeals appears in the Appendix at Al
and is reported at Nusbaum v. Nusbaum, 243 Md.App. 653, 221 A.3d 1107 (2019).
The order of the Court of Appeals denying certiorari has not yet been officially
reported and may be found in the Appendix at A25.
JURISDICTION
The Court of Special Appeals issued its decision on December 20, 2019. A
timely petition for certiorari was filed and denied by the Maryland Court of Appeals
on March 27,2020.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257..
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Const.. Amendment X:
The powers not delegated to the United States by the Constitution, nor
prohibited by it to the states, are reserved to the states respectively, or to the
people.
45 CFR § 301.1 - General definitions
Past-due support means the amount of support determined under a court
order or an order of an administrative process established under State law for

'J

support and maintenance of a child, or of a child and the parent with whom the
child is living, which has not been paid.
Spousal support means a legally enforceable obligation assessed against an
individual for the support of a spouse or former spouse who is living with a child or
children for whom the individual also owes support.
45 CFR § 302.51 Distribution of support collections.
The State plan shall provide as follows:
(a)(1) For purposes of distribution in a IV-D case, amounts collected ... as
payment on the required support obligation for the month in which the support was
collected and if any amounts are collected which are in excess of such amount, these
excess amounts shall be treated as amounts which represent payment on the
required support obligation for previous months.
SOCIAL SECURITY PROGRAM MANUAL GN 02410.215
How Garnishment Withholding Is Calculated
4. Multiple Orders
Garnishment orders for child support are no longer paid on a ‘first come, first
served" basis. 5 CFR 581.303(a) and 5 CFR 581.305(d) require that some money be
paid on each order for current child support if there is more than one withholding
order. Current child support takes priority over child support arrearages.
Garnishment for alimony is not included in the prorating. It will be considered after
child support payments (both current and arrearages) are calculated.
(https://secure.ssa.gov/appslQ/poms.nsfilnx/0202410215)
2

*7

Code of Maryland Administrative Regulations {“COMAR”)
07.07.07.05 Distribution and Disbursement of Support Payment Collections.
A. The amount of child support collected and due shall be distributed and disbursed
as required by the court order and the Social Security Act and regulations issued
under the Social Security Act.

STATEMENT OF THE CASE
Paul Nusbaum (Mr. Nusbaum) and Marsha Nusbaum (Ms. Nusbaum) were
married on June 4, 1988. (E. 1)*. During the marriage, the parties had four children,
namely Josiah Nusbaum (born August 20, 1992), Hannah Nusbaum (born August 8,
1995), Bethany Nusbaum (born June 1, 1997), and Jonathan Nusbaum (born
August 23, 2000). (E. 1-2).
The parties separated on January 23, 2003. (E. 1). The parties were granted a
Judgment for Absolute Divorce entered on January 26, 2005. (E. 14), which
incorporated the Separation Agreement executed by the parties on August 23, 2003.
(E. 14, 16).
Pursuant to the Judgment of Absolute Divorce, Mr. Nusbaum was obligated
to pay $1,422.00 per month for child support by an Earnings Withholding Order. (E.
14). Mr. Nusbaum was additionally obligated to pay $3,250 per month for alimony
by an Earnings Withholding Order. (E. 14, 15-16).

* “E” refers to the Record Extracts in the Court of Special Appeals.
3

After the divorce, Mr. Nusbaum moved his place of residence to Georgia. (E.
17, 20). The Earnings Withholding Order was registered in Georgia in 2008. (E. 183,
184). As a result of Mr. Nusbaum’s residence in Georgia, the Georgia Support
Administration withheld funds from Mr. Nusbaum's income pursuant to the Carroll
County Circuit Court Earnings Withholding Order, then forwarded those funds to
the Maryland BOSE. (E. 183, 184; E. 197, 198; E. 208, 253).
On December 15, 2010, the Magistrate, on behalf of the Court, held a hearing
on Appellant's Motion to Modify Child Support and Alimony. (E. 17). On January
25,2011, the Circuit Court for Carroll County ruled that Mr. Nusbaum "shall pay
current child support to [Ms. Nusbaum] at the reduced sum of $941.00 per month
from January 1, 2010-August 31, 2010; at the reduced sum of $835.00 per month for
the month of September 2010 and $929.00 per month in current support, accounting
from October 1, 2010, beginning January 1, 2011." (E. 180). The Court also ordered
the Maryland Bureau of Support Enforcement (BOSE) to calculate the child support
arrearage, which was to be paid at $21.00 per month until paid in full. (E. 180).
In 2016, while Mr. Nusbaum was making payments through the Georgia
Support Administration to be paid to Ms. Nusbaum, the Georgia Support
Administration informed Mr. Nusbaum that the child support arrearage they had
calculated was significantly lower than what Maryland had calculated as the child
support arrearage. (E. 183, 184).
Specifically, the Georgia Support Administration calculated that the child
support arrearage for Mr. Nusbaum was approximately $30,000.00 as of March
4

2016. (E. 183, 184; E. 208, 233). Maryland BOSE, however, calculated Mr.
Nusbaum's child support arrearage to be $80,905.25 as of March 2016. (E. 183, 184;
E. 312). Mr. Nusbaum argued that his child support arrearage should be calculated
by allocating his payments first to the current monthly child support obligation,
with any excess amount being paid towards the child support arrearage. (E. 208,
224-225).
Maryland calculated the child support arrearage by allocating funds towards
both the monthly alimony obligation, and the monthly child support obligation. (E.
312). Mr. Nusbaum then filed a Motion to Establish Arrearage for Child Support
and Alimony Payments and to Modify Support on April 6, 2016 (E. 183), to which
Ms. Nusbaum filed an Answer on June 7, 2016. (E. 193).
Mr. Nusbaum filed an Amended Motion to Establish Arrearage for Child
Support and Alimony Payments on August 4, 2016 (E. 197), to which Ms. Nusbaum
filed an Answer on August 22, 2016 (E, 203). The Circuit Court, with a Magistrate
presiding, held a hearing on this Motion on November 30. 2016. (E. 208). During
this hearing, Mr. Nusbaum, through counsel, argued that all payments made to Ms.
Nusbaum. through BOSE, should have been distributed first to the current child
support obligation, with any excess amounts allocated to the child support arrears.
(E. 208, 224-225). Mr. Nusbaum also argued that a full audit of these payments
should be performed by BOSE, and that the payments should be reallocated. (E.
208. 225: E. 208, 234).
Ms. Nusbaum argued that the payments were appropriately allocated. (E.
5

208, 279-81). The Magistrate granted Mr. Nusbaum's motion in part on April 10.
2017. (E. 320, 322). The Magistrate recommended that Mr. Nusbaum's child
support obligation be reduced to $481.00 per month, plus $120.25 per month
towards child support arrearages. (E. 320, 322). The Magistrate further stated that
she did not believe that the Court had the authority to order BOSE to do a full audit
of Mr. Nusbaum's payment or order BOSE to retroactively reallocate the payments
already made by Mr. Nusbaum. (E. 320, 323). However, the Magistrate indicated in
the Report and Recommendations that "upon the entry of this Order, that child
support current and arrearage payments should be given priority over the alimony
obligation, as it is in the best interest of parties' minor children." (E. 320, 323).
Mr. Nusbaum filed Exceptions to the Magistrate's Report and
Recommendations and Order on April 19, 2017. (E. 327). BOSE filed an Answer to
Mr. Nusbaum's Exceptions, on behalf of Ms. Nusbaum, on May 5, 2017. (E. 335).
On September 21,2017, the Circuit Court ordered that the Court did have the
authority to order BOSE to perform a full audit of Mr. Nusbaum's previous
payments and to have BOSE reallocate the funds. (E. 403). The Court also ordered
BOSE to perform such an audit and to reallocate Mr. Nusbaum's payments first
toward the current monthly child support payments during the months that each
payment was made, then towards child support arrearages, and with any excess
amount of the payment be allocated toward spousal support. (E. 403).
On October 2, 2017, Ms. Nusbaum then filed a Motion to Alter or Amend the
Court's September 21, 2017 Order, Consider Additional Evidence, or, in the
6

Alternative, Order a New Trial. (E. 407). In this Motion, Ms. Nusbaum submitted as
an exhibit Mr. Nusbaum's 1040 tax return forms from 2006 to 2009. (E. 407, 425).
Ms. Nusbaum claimed these tax return forms were originally submitted by Mr.
Nusbaum in the 2010 Magistrate's Hearing on a Motion to Modify Child Support
and Alimony Payments. (E.407, 410).
Each 1040 form indicated an amount for which Mr. Nusbaum received a tax
deduction for "alimony paid." (E. 407. 425-432). Separately, Maryland Bureau of
Support Enforcement filed a Motion to Reconsider the Court Order on October 2,
2017. (E. 444).
Mr. Nusbaum filed a Response to each of these motions on October 19, 2017.
(E. 456; E. 467). A hearing was held on these Motions on December 21, 2017. (E.
589). The Court entered an Opinion and Order on these Motions on February 26,
2018. (E. 687). The Court ordered that because Mr. Nusbaum filed his tax returns
in his Motions to Modify Child Support Payments in this same case, which asserted
the amounts that were allocated as alimony payments, that Mr. Nusbaum was
judicially estopped from claiming that those payments should have been allocated
towards child support. (E. 687, 694).
The Court then ordered that the allocation issue was not before the Court
because of the judicial estoppel ruling, (E. 687, 695). In reaching its decision,
however, the Court stated "the Court remains unconvinced that the
Administration's method of payment allocation is consistent with Maryland's best
interests of the child standard. Resolution of that issue will have to wait another
7

day." (E. 687, 695).
In doing so, the Court modified its September 21, 2017 Order, and overruled
the Exceptions. (E. 687, 695). Mr. Nusbaum filed a Motion to Alter or Amend the
Judgment on March 7, 2018 (E. 700), to which Ms. Nusbaum filed a Motion to
Dismiss on March 26, 2018. (E. 710).
On April 2. 2018, the Court entered an Order, which among other things,
revised the February 26, 2018 Order and determined that the Court did not have
the authority to Order BOSE to perform an accounting and reallocation of the
support payments, and denied the Motion to Alter or Amend, essentially taking the
case back to the recommended Order submitted by the Magistrate a year earlier, on
April 10, 2017. (E. 716, 718).
The Court of Special Appeals affirmed, albeit on a different ground. That
Court rejected the estoppel basis for the Circuit Court decision, but found that
separation of powers precluded the courts from setting aside the BOSE method of
allocation. It also concluded, on the basis of its construction of federal social security
regulations, that the allocation method was correct.

8

REASONS FOR GRANTING THE PETITION
WHEN NEITHER PARTY IS RECEIVING PUBLIC
ASSISTANCE THE FEDERAL GOVERNMENT HAS
NO INTEREST IN THE ALLOCATION OF SUPPORT
PAYMENTS AS HELD BY THE BETTER REASONED
DECISIONS: A CONTRARY RULE WOULD
VIOLATE THE TENTH AMENDMENT
There currently is a split of authority concerning whether Federal
regulations specify a method of allocation of child support and spousal support
payments when neither party is receiving public assistance.
Maryland, as demonstrated by the decision below, holds that Federal
regulations require that the allocation of support payments be made first to
prorated amounts between Child Support and Spousal Support. If there is any
payment remaining, it is to be applied to Child Support and Spousal Support
arrearages using the same proration percentages. The Maryland Court believed this
was required by 45 C.F.R. § 302.51. It rejected Petitioner’s argument to the
contrary, namely, his payments should be paid first to current child support, then to
child support arrearages, followed by current alimony, and then finally to alimony
arrearages.
Other courts hold “when . . .the obligee is not receiving, and has not received,
public assistance, the state does not have a direct interest in how such payments
are applied” and the common law rule permitting the debtor to make the allocation
applies. Matter of Marriage of Gayer, 326 Or. 436, 445, 952 P.2d 1030, 1035 (1998).
In this context, the “term ‘public assistance’ is defined as ‘government aid to needy,

9

blind, aged, or disabled persons and to dependent children.’” In re James, 406 F.3d
1340, 1345 (11th Cir. 2005) (quoting Merriam-Webster Online Dictionary).
The authorities on both sides of the issue are collected in Hornbeck v.
Caplinger, 227 W.Va. 611, 617, 712 S.E.2d 779, 782 (2011).
The Oregon Supreme Court’s analysis is correct. There is no governmental
interest in these circumstances where neither party is receiving public assistance.
The Federal regulations at issue do not provide for support allocation in that
instance, and, if they did, it would violate the Tenth Amendment. See Bond
v. United States, 564 U.S. 211 (2011). This is because the whole subject of domestic
relations “belongs to the laws of the State, and not to the laws of the United States.”
Simms v. Simms, 175 U.S. 162, 167 (1899).
The Constitutional issue need not be reached because the Federal regulations
do not purport to operate in these instances. “[P]rivate parties may contract as they
choose, provided that no law is violated thereby . .. .” Mallinckrodt, Inc. v.
Medipart, Inc., 976 F.2d 700, 703 (Fed. Cir. 1992). This is such a case.
The relevant regulation is 45 CFR § 302.51(a)(1), which provides:
For purposes of distribution in a IV-D case, amounts collected ... as
payment on the required support obligation for the month in which the
support was collected and if any amounts are collected which are in
excess of such amount, these excess amounts shall be treated as
amounts which represent payment on the required support obligation
for previous months.
The text of the regulation seems rather straightforward. It applies only in an
IV-D case, i.e. where the custodial parent is receiving public assistance from the

10

state’s Office of Child Support Enforcement. It should not apply in a bootstrap,
where a matter becomes an IV-D case simply because payments are made through
the child support enforcement unit.
Moreover, the regulation appears in the section of CFR concerning child
support and does not, in any sense, refer to alimony. Indeed, the term “spousal
support” is explicitly defined in 45 CFR § 301.1. Yet the term is conspicuously
absent from 45 CFR § 302.51(a)(1).
The reason for the exclusion seems rather clear. Unlike child support, which
are governed nationally by the child support guidelines, the rules governing
alimony or “spousal support” are not. Moreover, state and federal courts recognize
“the best interest of the child is an inseparable element of the child’s ‘support,’” In
re Jones, 9 F.3d 878, 881 (10th Cir. 1993). Reading the regulation in the fashion as
did the Maryland court is inconsistent with this policy.
It is also significant that federal tax law mandates that child support
obligations are a priority, with regard to the payments and funds collected or paid
from a former spouse, 26 U.S.C §71(c)(3). Federal tax provides that when a former
spouse pays less than the full amount of the child and spousal support sum for a
given month, pursuant to a divorce or separation instrument, the payment is
applied first to the current child support and the child support arrears. Id.
The United States Tax Court has consistently found that when payments are
made which are less than the total sum of the child support and spousal support
obligation, the “payment which is made shall, to the extent of the sum payable for
11

the support of the minor child, be considered as payment for such support.” Blyth v.
Commissioner, 21 T.C. 275, 279 (1953).
This rationale has been consistently followed to ensure that payments, which
are less than the total sum owed per month, are distributed first to the current child
support obligation and then to the child support arrears before being allocated to
spousal support. Proctor v. Commissioner, 129 T.C. 92 (2007) (holding that a lump
sum payment made by the former husband, which was less than the total amount
owed in child support and alimony (including arrearage) was allocated first to the
balance of the child support obligation, and then to alimony). See also Hazam v.
Commissioner, 79 T.C. 1579 (2000) (holding that when a former husband was
ordered to pay $200,000 a year in support to his former spouse, plus $30,000
specifically designated for child support, but only paid $200,000 a year, that $30,000
from each $200,000 payment “shall be considered, pursuant to 26 U.S.C. §71(c)(3), a
payment for child support”).
The Maryland Court of Special Appeals stated that Child Support and
Spousal Support are Equal, which is not following the Federal Policy. (E. 693) The
Code of Maryland Administrative Regulations {“COMAR”) 07.07.07.05 states, “The
amount of child support collected and due shall be distributed and disbursed as
required by the court order and the Social Security Act and regulations issued
under the Social Security Act.” The Social Security Act, Policy GN 02410.215
states, “Current child support takes priority over child support arrearages.
Garnishment for alimony is not included in the prorating. It will be considered after
12

child support payments (both current and arrearages) are calculated.”
The Maryland Court of Special Appeals state, “We hold OCSE's allocation of
support payments, first to current child support, second to current alimony support,
and third to arrearages of both alimony and child support, to be legally correct.” (E.
679) However, Mr. Nusbaum’s payments have always been prorated. Due to the
current percentage split between Child Support and Spousal Support, less than
twenty percent of every payment is being applied to Child Support.
In addition to not following the Federal Guidelines, OCSE is not following
their own policy manual. Section C.704 of their Policy manual provides a matrix
and defines how payments are to be distributed. (Appendix A24) The manual
states, “Regular payments are prorated by CSES at the CASE LEVEL using the
account/accounts support obligation amounts (SOA) to prorate the payment to the
case/cases.” The manual then lists acronyms indicating all of the account codes that
are to be prorated together as Priority 1. The OCSE points to the acronym “SC”,
which is included in the Priority 1 codes, and tells the court it represents “Spousal
Support.” Since it is fisted as a Priority 1 account, it should be Prorated with Child
Support. However, according to their manual, “SC” is defined as, “SPOUSAL
SUPPORT ONLY(N-IV-D).” (Appendix A25) According to their manual, the only
time Spousal Support is to be considered Priority 1, is when it is the only account,
and, only in Non-IV-D Cases. Their manual goes on, in C.706. which states, “The
following policy guidelines shall be used when processing distribution exceptions to
the federal and state distribution payment hierarchy, which requires child support
13

payments be applied to current support before satisfying other obligations.”
(Appendix A25)
The OCSE is required to follow their plan. 42 U.S. Code 666.(a) (8(A)(B)(iv)
states, “Withholding from income of amounts payable as support must be carried
out in full compliance with all procedural due process requirements of the State.”
The Maryland Court of Special Appeals stated that President Clinton’s
Executive order placed Child Support at the same level as Spousal Support.
However, the executive order states, “Children need and deserve the emotional and
financial support of both their parents.” “The Federal Government, through its
civilian employees and Uniformed Services members, is the Nation’s largest single
employer and as such should set an example of leadership and encouragement in
ensuring that all children are properly supported.” Exec. Order No. 12,953
“Requires each Federal agency, including the Uniformed Services, to provide
information to its employees and members about actions that they should take and
services that are available to ensure that their children are provided the support to
which they are legally entitled.” Exec. Order No. 12,953 Section 101(C). Failure to
follow the federal guidelines will result in Children not receiving the support they
deserve.
If the Maryland Court of Special Appeals precedent is followed, every non­
custodial parent that owes both child and spousal support, and has an income
withholding order is at risk of accumulating large Child Support arrears and suffer
consequences, should they not be able to pay both obligations. Additionally, if a non14

custodial parent has multiple Child Support orders with multiple families, and a
Spousal Support order, the Family that is only receiving Child Support will suffer
greatly. Especially during this Covid crisis. If the non-custodial parent is only able
to make their Child Support payment, that payment will be drastically reduced as it
will be prorated with the Spousal Support. How is this in the Children’s Best
Interest? This will cause Child Support Payments to fall below Child Support
Guidelines.
According to the National Conference of State Legislatures:
https://www.ncsl.org/research/human-services/state-data-on-child-supportcollections.aspx
In 2018, Maryland had:
Total Amount of Arrearages:

$ 1,350,708,171
$ 630,343,599

Total Support Due:

198,241

Total Caseload:

If Maryland fails to give Child Support priority, these numbers will continue
to climb. Additionally, non-custodial parents, if they are only able to pay Child
Support, may face punishment such as losing their driver’s license, which may
cause them to lose their jobs. Correct distribution of collected funds is a matter that
must be addressed by this Court.
Finally, insofar as this Court is concerned, separation of powers has nothing
to do with this case. Whether a regulation is applicable is a judicial issue and when,
as here, the regulation is clear and unambiguous, no deference is accorded to the
15

agency. See Kisor v. Wilkie, 139 S. Ct. 2400 (2019). Maryland erroneously believed
that it was constrained by Federal regulation to require prioritization of current
spousal support obligations over child support arrearages even though neither party
was receiving public assistance.
CONCLUSION
Certiorari should be granted to resolve the conflicting decisions. Federal
regulations do not require prioritization of current spousal support obligations over
child support arrearages where neither party is receiving public assistance. This
petition presents important issues of public policy that warrant review. The
precedential opinion of the Maryland Court of Special Appeals will cause
irreparable damage to the fabric of the law if left to stand.

Respectfully submitted,
Dated: August 3rd, 2020
Paul W Nusbaum/Jr.

16

APPENDIX

